March 5, 2003

GARY L. McCURDY
VICE PRESIDENT, EASTERN AREA OPERATIONS

SUBJECT: Audit Report – Sexual Harassment Prevention Measures in the Greensboro
         and Harrisburg Districts – Eastern Area (Report Number LH-AR-03-006)

This report presents the results of our audit of sexual harassment prevention
measures in the Greensboro and Harrisburg Districts – Eastern Area (Project
Number 02YG010LH002). Our overall objective was to determine if the districts had
adequate policies and procedures in place to prevent sexual harassment in the
workplace, and to effectively address sexual harassment complaints to mitigate
liability. This report is based on a self-initiated review, and is the sixth in a series of
ten reports we will be issuing regarding sexual harassment prevention measures
Postal Service-wide.

We found that the Greensboro and Harrisburg Districts’ sexual harassment policies and
procedures were adequate and that employees found responsible for sexual
harassment or inappropriate actions/comments were appropriately disciplined or
corrective action was taken. We also found that although no Postal Service national
policy existed regarding the retention time for informal complaint files, Greensboro was
retaining files indefinitely and Harrisburg was retaining files at least 2 years. We also
found, however, that some areas needed improvement. Specifically, the storage of
complaint files was not centrally located in both districts and Greensboro management
could not locate some files when we asked for them. Both districts have taken some
action to correct this deficiency. We also found that most sexual harassment
complaints in both districts were not effectively addressed.

The report included two recommendations to help the Greensboro and Harrisburg
Districts improve their sexual harassment prevention program. Management disagreed
with both recommendations and the finding that most complaints were not effectively
addressed. Although management disagreed with recommendation 1 in its entirety, we
believe actions taken by management are responsive to the first part of
recommendation 1 and should resolve some of the issues identified in this report.
However, actions taken or planned are not responsive to the second part of
recommendation 1, to fully document detailed evidence of actions taken to address
complaints, or recommendation 2. The Office of Inspector General (OIG) considers that
part of recommendation 1 and all of recommendation 2 as unresolved and will address
both in a separate capping report to the senior vice president, Human Resources.
Management’s comments and our evaluation of these comments are included in this
report.

The OIG considers recommendations 1 and 2 significant and therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, please contact Chris Nicoloff, director, Labor Management,
at (214) 775-9114, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Suzanne F. Medvidovich
    Murry E. Weatherall
    Edward B. Burke
    David C. Fields
    Susan M. Duchek
Sexual Harassment Prevention Measures in the Greensboro               LH-AR-03-006
 and Harrisburg Districts – Eastern Area


                                  TABLE OF CONTENTS
 Executive Summary                                                         i

 Part I

 Introduction                                                              1

     Background                                                            1
     Objective, Scope and Methodology                                      1
     Prior Audit Coverage                                                  1

 Part II

 Audit Results                                                             2

     Policies and Procedures Adequate                                      2

     Employees Appropriately Disciplined or Corrective Action Taken        3

     Pay for Performance                                                   5

     Most Complaints Not Effectively Addressed                             6
     Recommendation                                                        7
     Management’s Comments                                                 7
     Evaluation of Management’s Comments                                   8

     File Retention and Storage Needed Improvement                       11
     Recommendation                                                      12
     Management’s Comments                                               12
     Evaluation of Management’s Comments                                 13

     Additional Management’s Comments                                    14
     Evaluation of Management’s Comments                                 14

 Appendix A. Objective, Scope, and Methodology                           15

 Appendix B. Management’s Comments                                       17




                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro                          LH-AR-03-006
 and Harrisburg Districts – Eastern Area


                                 EXECUTIVE SUMMARY
 Introduction                 This report presents the results of our audit of sexual
                              harassment prevention measures in the Greensboro and
                              Harrisburg Districts, located in the Eastern Area. This
                              review was self-initiated to determine if the districts had
                              adequate policies and procedures in place to prevent sexual
                              harassment in the workplace, and to effectively address
                              sexual harassment complaints to mitigate liability.

 Results in Brief             The audit revealed that the Greensboro and Harrisburg
                              Districts’ sexual harassment policies and procedures were
                              adequate and that employees found responsible for sexual
                              harassment or inappropriate actions/comments were
                              appropriately disciplined or corrective action was taken. We
                              also found that although no Postal Service national policy
                              existed regarding the retention time for informal complaint
                              files, Greensboro was retaining files indefinitely and
                              Harrisburg was retaining files at least 2 years. We also
                              found, however, that some areas needed improvement.
                              Specifically, the storage of complaint files was not centrally
                              located in both districts and Greensboro management could
                              not locate some files when we asked for them. Both
                              districts have taken some action to correct this deficiency.
                              We also found that most sexual harassment complaints in
                              both districts were not effectively addressed.

 Summary of                   The report included two recommendations to help the
 Recommendations              Greensboro and Harrisburg Districts improve their sexual
                              harassment prevention program. We recommended the
                              vice president, Eastern Area, instruct the Greensboro and
                              Harrisburg District managers to establish controls to ensure
                              managers and supervisors effectively address all sexual
                              harassment complaints and inappropriate actions/comments
                              of a sexual nature and fully document detailed evidence of
                              the actions taken to address complaints; and ensure all
                              informal complaint files are stored in a central location and
                              retained for at least 4 years.

 Summary of                   Management disagreed with both recommendations and the
 Management’s                 finding that most complaints were not effectively addressed.
 Comments                     Management stated the Eastern Area had already
                              established controls to ensure managers and supervisors
                              effectively addressed all sexual harassment complaints.
                              Management also disagreed that all actions taken to


                                                  i
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro                            LH-AR-03-006
 and Harrisburg Districts – Eastern Area


                              address complaints should be fully documented. They said
                              they followed Postal Service policy that stated, “some
                              complaints can be resolved simply and directly between the
                              parties without the need for a formal written record.”
                              Management stated the Eastern Area has undertaken
                              several initiatives to address the problem of sexual
                              harassment and that they are firmly committed to providing
                              an effective mechanism to combat the problem and to
                              provide a work environment free of sexual harassment.

                              Management disagreed with the finding that complaints
                              were not effectively addressed. Management agreed that
                              two complaints were not investigated promptly and one was
                              not thorough.

                              Management also disagreed that informal complaint files
                              should be filed in a central location and retained for at least
                              4 years, because Postal Service policy did not require
                              documentation of all complaints and, therefore, there was
                              no need for central location and storage. Management
                              stated a policy already existed for investigations conducted
                              by the Sexual Harassment Fact Finding Teams that
                              required central storage and 10 year retention.

                              Management also stated they were concerned with a
                              general lack of precision and specificity regarding particular
                              verbiage used in the report. Specifically, the report
                              appeared to shorten or simplify the definition of sexual
                              harassment, and it used the terminology “formal” and
                              “informal” which was confusing. Management’s comments,
                              in their entirety, are included in Appendix B of this report.

 Overall Evaluation of        Management’s actions taken or planned are responsive to
 Management’s                 the first part of recommendation 1. However,
 Comments                     management’s comments are not responsive to the
                              second part of recommendation 1, and all of
                              recommendation 2. Although management disagreed
                              with recommendation 1 in its entirety; their actions are
                              responsive and meet the intent of the recommendation to
                              ensure complaints are effectively addressed. However,
                              regarding the second part of recommendation 1, we do not
                              agree that fully documenting actions taken to address
                              complaints will potentially lead to a failure in the ability of
                              supervisors to quickly resolve minor workplace issues.
                              Documenting the action management took, after they



                                                  ii
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro                                                 LH-AR-03-006
 and Harrisburg Districts – Eastern Area



                                    address the complaint, has no impact on how quickly a
                                    matter can be resolved. It does, however, play an important
                                    role in determining credibility and mitigating liability. Postal
                                    Service policy is clear that serious complaints must be
                                    documented, and further provides that “When in doubt,
                                    document.” We believe the policy does not limit
                                    management from documenting all actions, it simply
                                    establishes a floor, not a ceiling for addressing complaints.

                                    Regarding management’s disagreement with the finding that
                                    complaints were not effectively addressed, we believe the
                                    audit results support the assertion. Management was
                                    provided opportunities during and after our fieldwork to
                                    show how these complaints were addressed.

                                    We do not agree with management, regarding
                                    recommendation 2, that the Eastern Area policy is sufficient
                                    because the policy does not include inquiries or
                                    investigations conducted by anyone other than those
                                    conducted by the Sexual Harassment Fact Finding team.

                                    We also do not agree that shortening the legal definition of
                                    sexual harassment distorted the precise legal meaning of
                                    the concept. Additionally, we do not agree that the use of
                                    the term “informal” for complaints outside of the Equal
                                    Employment Opportunity process was confusing since the
                                    report is clear as to the definition of that term.

                                    The Office of Inspector General considers
                                    recommendations 1 and 2 as unresolved and will address
                                    both in a separate capping report.1




1
 We will issue a capping report on the audit results for the nine areas we visited, including the Eastern Area, where
recommendations regarding national policy will be made to the senior vice president, Human Resources.




                                                         iii
                                               Restricted Information
Sexual Harassment Prevention Measures in the Greensboro                                               LH-AR-03-006
 and Harrisburg Districts – Eastern Area


                                            INTRODUCTION
    Background                     Sexual harassment is defined by law as unwelcome sexual
                                   advances, requests for sexual favors, and other verbal or
                                   physical conduct of a sexual nature that becomes a term or
                                   condition of employment. According to a Postal Service
                                   Law Department report, in fiscal years (FY) 2000 and 2001,
                                   the Postal Service paid approximately $439,1022 for sexual
                                   harassment judgments and settlements in the Eastern
                                   Area.3

    Objective, Scope, and          Our overall objective was to determine if the districts had
    Methodology                    adequate policies and procedures in place to prevent sexual
                                   harassment in the workplace, and to effectively address
                                   sexual harassment complaints to mitigate liability. Our
                                   objective, scope, and methodology are discussed in
                                   Appendix A.

    Prior Audit Coverage           We did not identify any prior audits or reviews related to the
                                   objective of this audit in these two districts.




2
 This amount represents 15 complaints. None of these complaints were within the scope of our review.
3
 In September 2001, the Postal Service reorganized its area and district offices and the Allegheny Area and the
majority of the former Mid-Atlantic Areas changed to the Eastern Area.




                                                         1
                                              Restricted Information
Sexual Harassment Prevention Measures in the Greensboro                                                LH-AR-03-006
 and Harrisburg Districts – Eastern Area


                                             AUDIT RESULTS
    Policies and                    We found that the Greensboro and Harrisburg Districts had
    Procedures Adequate             adequate policies and procedures that should enable district
                                    management to identify and prevent sexual harassment or
                                    inappropriate actions/comments, and provide management
                                    with guidance to respond effectively to complaints, thus
                                    mitigating liability and costs.

                                    We also found that the districts:

                                        •    Established as district policies, Postal Service
                                             Publication 552, Manager’s Guide to Understanding
                                             Sexual Harassment, and Publication 553,
                                             Employee’s Guide to Understanding Sexual
                                             Harassment.

                                        •    Established investigative teams at the district level to
                                             investigate all complaints.

                                        •    Used Voice of the Employee surveys4 to monitor the
                                             work environment and when necessary provided
                                             additional training to raise awareness.

                                    In addition, we found the Greensboro District issued a
                                    memorandum reinforcing the Postal Service’s zero
                                    tolerance policy for sexual harassment.




4
  The Voice of the Employee survey was a data collection instrument that the Postal Service had established to help
improve workplace relationships and to ensure all employees were treated with fairness, felt safe in their workplace,
had opportunities to participate in improvements, and took pride in being Postal Service employees.




                                                          2
                                               Restricted Information
Sexual Harassment Prevention Measures in the Greensboro                                                 LH-AR-03-006
 and Harrisburg Districts – Eastern Area




    Employees Appropri-               We found that employees responsible for sexual
    ately Disciplined or              harassment or inappropriate actions/comments were
    Corrective Action                 appropriately disciplined, or corrective action was taken.
    Taken
                                      Equal Employment Opportunity Commission 1990 and
                                      1999 guidelines recommended agencies take immediate
                                      and appropriate corrective action, including discipline, when
                                      sexual harassment occurred. Postal Service policy stated
                                      employees engaged in sexual harassment would be subject
                                      to disciplinary action, up to and including removal. The
                                      policy also stated that disciplinary action might result even if
                                      the conduct was not sexual harassment as defined by the
                                      law, but was inappropriate and of a sexual nature.

                                      Our review of formal and informal5 complaints in the
                                      Greensboro and Harrisburg Districts showed that:

                                           •   Of the 18 formal and informal sexual harassment
                                               complaints filed in the Greensboro District, sexual
                                               harassment or inappropriate actions/comments
                                               were not substantiated in 6, substantiated in 4,
                                               and inconclusive in 1. For the remaining
                                               seven complaints, management did not conduct an
                                               inquiry or investigation to determine whether sexual
                                               harassment or inappropriate actions/comments had
                                               occurred, and thus no discipline or corrective action
                                               was considered or taken.

                                               – In one of the six unsubstantiated complaints, a
                                                 sexual harassment awareness video was shown
                                                 to all employees in the facility.

                                               – In the four substantiated complaints,
                                                 four employees were involved and all were
                                                 appropriately disciplined or corrective action was
                                                 taken.

                                               – In the one inconclusive complaint, no discipline or
                                                 corrective action was taken.



5
    The term “informal” complaint refers to those not filed using the Equal Employment Opportunity process.




                                                            3
                                                 Restricted Information
Sexual Harassment Prevention Measures in the Greensboro                          LH-AR-03-006
 and Harrisburg Districts – Eastern Area



                                  •   Of the two formal sexual harassment complaints filed
                                      in the Harrisburg District, sexual harassment or
                                      inappropriate actions/comments were not
                                      substantiated in one. For the remaining complaint,
                                      management did not conduct an inquiry or
                                      investigation to determine whether sexual
                                      harassment or inappropriate actions/comments had
                                      occurred, and thus no discipline or corrective action
                                      was considered or taken.

                                      – For the complaint where management conducted
                                        an inquiry, the two employees involved received a
                                        discussion on sexual harassment policies, even
                                        though sexual harassment was not substantiated.




                                                  4
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro                                          LH-AR-03-006
 and Harrisburg Districts – Eastern Area




 Pay for Performance             Equal Employment Opportunity Commission guidelines
                                 included a reduction in wages as an effective corrective
                                 measure to stop harassment and ensure it does not
                                 reoccur. Postal Service policy stated an employee whose
                                 conduct was clearly unacceptable may be excluded from
                                 the Pay for Performance Program.6 The Postal Service
                                 described unacceptable behavior as “notoriously disgraceful
                                 or immoral conduct, or other conduct prejudicial to the
                                 Postal Service.”

                                 We found that the four employees in the Greensboro District
                                 found responsible for sexual harassment or inappropriate
                                 actions/comments were not eligible for the Pay for
                                 Performance Program.




6
  The Pay for Performance Program, formerly referred to as the Economic Value Added Program, was an incentive
award program for nonbargaining employees. The amount of money received by each employee was based on a
group achievement of performance targets and financial measurements.




                                                       5
                                            Restricted Information
Sexual Harassment Prevention Measures in the Greensboro                                               LH-AR-03-006
 and Harrisburg Districts – Eastern Area




    Most Complaints Not Our audit disclosed that 15 of the 20 complaints were not
    Effectively Addressed effectively addressed in the Greensboro and Harrisburg
                          Districts. Equal Employment Opportunity Commission
                          guidelines defined an “effective” investigation as a prompt,
                          thorough, and impartial review with documented evidence.
                          Postal Service policy required managers to conduct sexual
                          harassment inquiries promptly and investigate all
                          complaints, and document “serious” complaints with
                          detailed evidence.7

                                   We found that:

                                        •   Postal Service national policy did not require that “all”
                                            complaints be documented—only those that
                                            managers believed were “serious.”

                                        •   Of the 18 formal and informal complaints filed in the
                                            Greensboro District, 5 were effectively addressed
                                            and 13 were not.

                                            – For the 13 not effectively addressed, 5 were not
                                                 prompt, 1 was not thorough, and 7 were not
                                                 investigated.

                                        •   Of the two formal complaints filed in the Harrisburg
                                            District, neither was effectively addressed--one was
                                            not prompt and the other was not investigated.

                                   Both districts could not provide an explanation why
                                   complaints were not effectively addressed.

                                   Complaints not effectively addressed could result in liability
                                   because the Postal Service cannot demonstrate it exercised
                                   reasonable care to prevent and promptly correct harassing
                                   behavior. We believe the lack of a Postal Service policy
                                   requiring documentation of all complaints may have been a
                                   factor. We will address these issues in a separate report.



7
  Publication 552 was revised effective September 2001, and replaced the term “serious” with the statement “some
complaints can be resolved simply and directly between the parties without the need for a formal written record.” The
revised policy also provided that managers/supervisors needed to decide early in the process whether formal
documentation was warranted, and that a good rule of thumb was when in doubt, document.




                                                         6
                                              Restricted Information
Sexual Harassment Prevention Measures in the Greensboro                             LH-AR-03-006
 and Harrisburg Districts – Eastern Area


 Recommendation               We recommend the vice president, Eastern Area
                              Operations, instruct the Greensboro and Harrisburg District
                              managers to:

                                   1. Establish controls to ensure managers and
                                      supervisors effectively address all sexual
                                      harassment complaints and fully document detailed
                                      evidence of the actions taken to address complaints.

 Management’s                 Management disagreed with the recommendation and
 Comments                     stated controls had already been established. Management
                              also disagreed that all actions to address complaints should
                              be fully documented. They said they followed Postal
                              Service policy that stated, “some complaints can be
                              resolved simply and directly between the parties without the
                              need for a formal written record.” Management further
                              stated to require a written report of every minor incident
                              would potentially lead to a failure in the ability of supervisors
                              to quickly resolve minor workplace issues. Management
                              stated that the complaints we reviewed took place between
                              September 1999 and September 2001 and since that time;
                              the Eastern Area had undertaken several initiatives to
                              address the problem of sexual harassment including the
                              Sexual Harassment Fact-Finder Program. In addition,
                              management stated they continue to address the issue
                              through effective communications and training of
                              employees. Management also stated they were firmly
                              committed to providing an effective mechanism to
                              combating sexual harassment and to providing a work
                              environment free of sexual harassment.

                              Management also disagreed with the finding that most
                              complaints were not effectively addressed. They stated
                              both complaints in the Harrisburg District were effectively
                              addressed, and in one complaint, management took prompt
                              and appropriate action by removing the alleged harasser
                              from the work area. Management stated the second
                              complaint was not sexual harassment, and it was not clear
                              why this complaint was included in the draft report.

                              Management agreed that two complaints in the Greensboro
                              District were not investigated promptly, and one was not
                              thorough. However, they disagreed that the other
                              ten complaints were not effectively addressed. They stated
                              the three complaints identified as not prompt were


                                                  7
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro                          LH-AR-03-006
 and Harrisburg Districts – Eastern Area


                              investigated from 3 to 26 days from receipt of the complaint.
                              Management considered this prompt because the time
                              required to investigate them varied, depending upon
                              circumstances of the allegation. Management disagreed
                              that the passage of a few days or weeks to conduct an
                              investigation should lead to the conclusion that complaints
                              were not effectively addressed.

                              Management also stated the report mislabeled several
                              complaints as sexual harassment. For example, they said
                              one complaint concerned an allegation of disparate
                              treatment with no allegations of sexual harassment.
                              Another was initiated as a result of a co-worker’s use of the
                              phrase, “OK, sugar, alright darling.”

                              Finally, management stated for those complaints we
                              reported as not investigated, we overlooked that some
                              complaints could be addressed simply and directly between
                              the parties, without a need for written reports or
                              documentation. Management also stated that seven
                              complaints not investigated were resolved early in the Equal
                              Employment Opportunity process.

 Evaluation of                Management disagreed with the recommendation in its
 Management’s                 entirety, however, management’s actions taken or planned
 Comments                     are responsive to the first part of the recommendation to
                              establish controls to ensure managers or supervisors
                              effectively address all sexual harassment complaints. We
                              believe management reaffirmed the requirement that
                              managers and supervisors effectively address sexual
                              harassment complaints, when it issued guidelines and
                              two memorandums in November 2002, on sexual
                              harassment investigations. (See Appendix B.) In addition,
                              our report acknowledged the initiatives taken by the Eastern
                              Area to raise awareness.

                              Management’s comments were not responsive to the intent
                              of the second part of the recommendation to fully document
                              actions taken to address complaints. We do not agree with
                              management that documenting actions would potentially
                              lead to a failure in the ability of supervisors to quickly
                              resolve minor workplace issues. Documenting action
                              management took after they address the complaint has no
                              impact on how quickly a matter can be resolved.
                              It does, however, play an important role in determining



                                                  8
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro                               LH-AR-03-006
 and Harrisburg Districts – Eastern Area


                              credibility and mitigating liability. Specifically, it provides a
                              record of the action taken to address and resolve sexual
                              harassment complaints. Postal Service policy is clear that
                              serious complaints must be documented, and further
                              provides that “When in doubt, document.” We believe the
                              policy does not limit management from documenting all
                              actions, it simply establishes a floor, not a ceiling for
                              addressing complaints.

                              Regarding management’s disagreement with the finding, we
                              believe the audit results support the assertion that
                              complaints were not effectively addressed. Management
                              was provided opportunities during and after the fieldwork to
                              provide information that would show how the complaints
                              were effectively addressed. For example, in one complaint
                              district management told us they were aware of the
                              allegation, however, they did not conduct an investigation
                              beyond the Equal Employment Opportunity process. In the
                              second complaint, management could not support that
                              prompt action had been taken to address the complaint.
                              Although an investigation had been conducted, it did not
                              begin until at least a month after the initial allegation was
                              reported.

                              We do not agree that complaints in the Greensboro District
                              addressed within a 3 to 26 day timeframe should be
                              considered prompt, and that the passage of a few days or
                              weeks to conduct an investigation should not lead to the
                              conclusion that complaints were not effectively addressed.
                              We determined that complaints not addressed within
                              48 hours would not be considered prompt. This standard
                              was based on Equal Employment Opportunity Commission
                              and Postal Service guidelines, the definitions of “prompt”
                              and “immediate” (used in guidelines and policy), and
                              discussions with Postal Service Headquarters officials. In
                              addition, the standard was discussed with, and agreed to,
                              by headquarters officials prior to audit work. One vice
                              president told us he expected his managers or supervisors
                              to respond to a complaint within 24 hours. Additionally we
                              did not make our determination of promptness based on
                              how long it took to complete the inquiry or investigation, but
                              rather how long it took management to respond when they
                              became aware of the allegation.




                                                  9
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro                         LH-AR-03-006
 and Harrisburg Districts – Eastern Area



                              We also do not agree that some complaints should not have
                              been included in the report. As stated in the report, the
                              complaint files we reviewed were obtained from the Postal
                              Service Equal Employment Opportunity case file database
                              and district management, and were classified as sexual
                              harassment by those sources. Our intent was to determine
                              how management addressed an allegation of sexual
                              harassment at the time it was received, regardless of what
                              was determined after the investigation. Also stated in our
                              report is our inclusion of complaints defined by Postal
                              Service policy as inappropriate actions/comments of a
                              sexual nature.

                              Regarding complaints that were resolved early in the Equal
                              Employment Opportunity process, Postal Service policy, in
                              addition to Equal Employment Opportunity guidelines, state
                              that even when an employee files an Equal Employment
                              Opportunity claim, management still has an obligation to
                              conduct their own internal inquiry or investigation. We
                              believe that although the complaints were resolved in the
                              Equal Employment Opportunity process, management still
                              should have conducted their own inquiry independent of that
                              process. In doing so, management could have ensured that
                              the alleged incident was not affecting the work environment
                              of other employees.

                              We view the disagreement on this recommendation as
                              unresolved and it will be addressed in our capping report.




                                                 10
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro                                                 LH-AR-03-006
 and Harrisburg Districts – Eastern Area




    File Retention and               Our audit found there was no Postal Service policy
    Storage Needed                   regarding the retention time for informal complaint files.
    Improvement                      In addition, the retention of informal complaint files was
                                     adequate in Greensboro, but not in Harrisburg. Also,
                                     storage of files was not adequate in either district.

                                     Equal Employment Opportunity Commission guidance
                                     stated formal sexual harassment complaint files should be
                                     retained for at least 4 years after resolution of the complaint.
                                     Postal Service policy stated once an inquiry/investigation
                                     was conducted, files should be forwarded for storage, to the
                                     district Human Resources manager. According to a
                                     headquarters senior Postal Service manager, the intent of
                                     this policy was to centrally locate the files with the Human
                                     Resources manager.

                                     Eastern Area policy stated management inquiries conducted
                                     by fact-finders8 were to be forwarded to the area office for
                                     storage and retained for 10 years. Area policy also stated
                                     that management inquiries conducted by managers or
                                     supervisors were to be stored at the facility and retained for
                                     2 years.

                                     We found that:

                                          •   Greensboro retained most informal complaint files
                                              indefinitely.

                                          •   Harrisburg retained files in accordance with Eastern
                                              Area policy.

                                          •   Neither district stored complaint files in a central
                                              location, and Greensboro could not locate some files
                                              when we requested them. Greensboro District
                                              management stated some files could not be located
                                              because the managers that worked in the district
                                              when the complaints were made were no longer
                                              there and the current managers did not know where
                                              the files were located.



8
    Fact finders were Postal Service employees trained to inquire or investigate alleged sexual harassment complaints.




                                                          11
                                                Restricted Information
Sexual Harassment Prevention Measures in the Greensboro                            LH-AR-03-006
 and Harrisburg Districts – Eastern Area



                                  •   Eastern Area officials stated they would consider
                                      revising the retention period for the initial
                                      management inquiry to 10 years and requiring that all
                                      management inquiries be forwarded to the Human
                                      Resources office.

                              During the audit, both districts took actions to correct the
                              problems we identified. The Greensboro District was
                              developing a policy to ensure complaint files would be
                              stored in a central location. The Harrisburg District
                              developed instructions to store informal files in a secure
                              location.

                              Retaining and storing informal complaint files in a central
                              location would ensure file availability if needed to mitigate
                              liability. We will address the need for a national retention
                              policy in a separate report.

 Recommendation               We recommend the vice president, Eastern Area
                              Operations, direct the Greensboro and Harrisburg District
                              managers to:

                                      2. Establish controls to ensure all informal complaint
                                         files are stored in a central location and retained
                                         for at least 4 years.

 Management’s                 Management disagreed with the recommendation to the
 Comments                     extent the recommendation concerned documentation of
                              “informal” sexual harassment complaints. They said Postal
                              Service policy did not require all sexual harassment
                              complaints be documented, and, therefore, there was no
                              need for central storage procedures. Additionally,
                              management stated to the extent the recommendation
                              refers to inquiries and internal investigations, the Eastern
                              Area’s Sexual Harassment Fact-Finding Program had a
                              document retention policy consistent with this
                              recommendation. Management stated that fact-finding
                              reports are maintained centrally at the Eastern Area office
                              upon completion and maintained for 10 years.




                                                 12
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro                           LH-AR-03-006
 and Harrisburg Districts – Eastern Area




 Evaluation of                Management’s actions taken or planned are not responsive
 Management’s                 and do not meet the intent of our recommendation. The
 Comments                     Eastern Area policy does not include inquiries or
                              investigations that may be conducted by anyone other than
                              the Sexual Harassment Fact Finding teams. As stated
                              previously, we believe all actions taken to address
                              complaints should be fully documented. We further believe
                              all files, including inquiries and investigations conducted by
                              managers and supervisors, should be stored in a central
                              location and retained for at least 4 years. This ensures file
                              availability if needed to mitigate liability. We view the
                              disagreement on this recommendation as unresolved and it
                              will be addressed in a separate report.




                                                 13
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro                           LH-AR-03-006
 and Harrisburg Districts – Eastern Area


 Additional                   Management stated they were concerned with a general
 Management’s                 lack of precision and specificity regarding particular
 Comments                     verbiage used in the report. Specifically, the report
                              appeared to shorten or simplify the definition of sexual
                              harassment, thereby distorting the precise legal meaning of
                              the concept. Management also stated that it appeared that
                              a few matters labeled by the draft report as sexual
                              harassment clearly fall short of the precise definition of
                              sexual harassment.

                              Additionally, management stated they found the use of the
                              terminology “formal” and “informal” confusing because this
                              terminology is a “form of art” commonly used to describe
                              Equal Employment Opportunity complaints.

 Evaluation of                We do not agree with management that the legal definition
 Management’s                 of sexual harassment was distorted by shortening the legal
 Comments                     meaning of the concept. Some of the complaint files
                              reviewed may not have risen to the legal definition of sexual
                              harassment; however, they did meet the Postal Service’s
                              criteria for when such complaints should be addressed. In
                              addition, they fell within our scope and audit objectives that
                              included coverage of the Postal Service policy regarding
                              inappropriate actions/comments of a sexual nature.
                              Specifically, that policy states “that even if a certain
                              behavior does not seem to be “sexual harassment” as
                              defined by law, if it is inappropriate, stop it!”

                              Our use of the term “informal” for complaints outside of the
                              Equal Employment Opportunity process was not meant to
                              confuse the reader, but rather provide an explanation of
                              terms that some readers may not be familiar with. We
                              believe the footnote in the report is clear regarding the
                              meaning.




                                                 14
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro                                             LH-AR-03-006
 and Harrisburg Districts – Eastern Area


                                  APPENDIX A
                     OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to determine if the Greensboro and Harrisburg Districts, in the
Eastern Area, implemented adequate policies and procedures to prevent sexual
harassment9 in the workplace and to effectively address sexual harassment complaints
to mitigate liability. Our district selections were based on interviews with the senior vice
president, Human Resources; vice president, Diversity Development; and vice
president, Eastern Area. We also considered the number of closed formal sexual
harassment complaints in each of the 15 Eastern Area districts.

To accomplish our objective, we reviewed applicable laws, policies, procedures, and
other documents including Equal Employment Opportunity Commission guidelines,
Postal Service national policies, the Eastern Area, and the Greensboro and Harrisburg
District policies for preventing sexual harassment in the workplace. We also reviewed
Postal Service national policy regarding the Pay for Performance Program. In addition,
we reviewed previously issued OIG reports related to sexual harassment issues.
Further, we interviewed Postal Service Headquarters, Eastern Area, and Greensboro
and Harrisburg District officials.

To determine if adequate policies and procedures were in place to prevent sexual
harassment from occurring in the workplace, we identified Equal Employment
Opportunity Commission key recommendations to agencies regarding policies and
procedures that should be in place to prevent sexual harassment and reduce the risk of
agency liability. We then reviewed the Postal Service national, Eastern Area, and
Greensboro and Harrisburg District policies and procedures to determine if the
recommendations were included.

To determine whether district managers effectively addressed informal sexual
harassment complaints to mitigate liability, we analyzed the documentation contained in
formal and informal complaint files that were filed and closed10 in FYs11 2000 and 2001,
for the two districts we selected. We recorded information related to promptness,
thoroughness, impartiality and the level of documentation. These fiscal years were
chosen because they were the most recent and complete fiscal years at the time of our
fieldwork. The number of formal and informal closed complaints was obtained from the
Postal Service Equal Employment Opportunity case file database and district


9
  For the purpose of this report, we used the legal definition of sexual harassment defined, in part, in
29 C.F.R. § 1604.11(a), as unwelcome sexual conduct that is a term or a condition of employment. In addition, we
included the Postal Service policy regarding inappropriate actions/comments of a sexual nature when reviewing
sexual harassment complaint files.
10
   Sexual harassment complaints may be considered closed for a number of reasons including: (1) the
inquiry/investigation was completed, (2) a settlement had been reached, (3) the complaint was withdrawn, or
(4) discipline or corrective action was taken.
11
   We used the Postal Service fiscal year that started September 11, 1999, and ended September 7, 2001.




                                                       15
                                             Restricted Information
Sexual Harassment Prevention Measures in the Greensboro                                            LH-AR-03-006
 and Harrisburg Districts – Eastern Area


management, respectively. We then excluded those complaints where the employees
filed their complaints directly with the Equal Employment Opportunity office and
requested confidentiality. These were excluded because honoring the request for
confidentiality precluded the Equal Employment Opportunity office from notifying district
management that a complaint had been made. This in turn precluded management
from conducting an investigation. We determined there were 20 closed complaint files
as follows:

                                                        Complaints               Total Complaints
                         District
                                                     Formal   Informal              Per District
          Greensboro                                   11         7                     18
          Harrisburg                                   2          0                     2
           Total                                       13         7                     20

We also determined if the retention and storage of informal files were adequate using
Postal Service national, area, and district policies as well as Equal Employment
Opportunity Commission guidelines.

In addition, we determined whether employees found responsible for sexual harassment
received appropriate discipline using Equal Employment Opportunity Commission
guidelines, Postal Service policies and procedures, and some elements of the Douglas
Factors.12 We included in this determination whether or not managers or supervisors
found responsible for sexual harassment or inappropriate actions/comments were
considered for exclusion from the Pay for Performance Program.

This audit was conducted from February 2002 through March 2003 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. We discussed our
conclusions and observations with appropriate management officials and included their
comments, where appropriate.




12
   The Douglas Factors were developed as a result of case law (Douglas v. the Veterans’ Administration) where the
Merit Systems Protection Board ruled that management must document certain factors to be considered in making a
determination of appropriate disciplinary action.




                                                       16
                                             Restricted Information
Sexual Harassment Prevention Measures in the Greensboro         LH-AR-03-006
 and Harrisburg Districts – Eastern Area


                  APPENDIX B. MANAGEMENT’S COMMENTS




                                                 17
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro         LH-AR-03-006
 and Harrisburg Districts – Eastern Area




                                                 18
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro         LH-AR-03-006
 and Harrisburg Districts – Eastern Area




                                                 19
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro         LH-AR-03-006
 and Harrisburg Districts – Eastern Area




                                                 20
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro         LH-AR-03-006
 and Harrisburg Districts – Eastern Area




                                                 21
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro         LH-AR-03-006
 and Harrisburg Districts – Eastern Area




                                                 22
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro         LH-AR-03-006
 and Harrisburg Districts – Eastern Area




                                                 23
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro         LH-AR-03-006
 and Harrisburg Districts – Eastern Area




                                                 24
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro         LH-AR-03-006
 and Harrisburg Districts – Eastern Area




                                                 25
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro         LH-AR-03-006
 and Harrisburg Districts – Eastern Area




                                                 26
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro         LH-AR-03-006
 and Harrisburg Districts – Eastern Area




                                                 27
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro         LH-AR-03-006
 and Harrisburg Districts – Eastern Area




                                                 28
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro         LH-AR-03-006
 and Harrisburg Districts – Eastern Area




                                                 29
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro         LH-AR-03-006
 and Harrisburg Districts – Eastern Area




                                                 30
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro         LH-AR-03-006
 and Harrisburg Districts – Eastern Area




                                                 31
                                       Restricted Information
Sexual Harassment Prevention Measures in the Greensboro         LH-AR-03-006
 and Harrisburg Districts – Eastern Area




                                                 32
                                       Restricted Information
